Supreme Court, U.S.
FILED

DEC 0 3 2020

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

RODARIUS GRIMES

— PETITIONER

(Your Name)

vs.
STAE OF ALABAMA.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

COURT OF CRIMINAAL APPEALS-STATF. DF AT ARAMA______ ;______
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION'FOR WRIT OF CERTIORARI

RODARIUS GRTMF.S . AT£#31 S781
(Your Name)
W.E. DONALDSON CORRECTIONAT. FArn ttv
(Address)
100 WARRIOR LANE BESSEMER, ALABAMA 35023
(City, State, Zip Code)

(Phone Number)

wiim

a-

r

QUESTION(S) PRESENTED

i

I. WHETHER THE STATE COURT DECISIONS WAS/IS IN DIRECT CONFLICT
WITH CLEARLY ESTABLISH LAW AS DETERMINED FROM THE U.S. SUPREME
COURT?

t

;

r

LIST OF PARTIES

?X| All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A - PETITIONER'S BRIEF ON APPEAL

APPENDIX B -RESPONDENT'S BRIEF ON APPEAL
APPENDIX C- PETITIONER’S REPLY BRIEF
APPENDIX D -COURT OF CRIMINAL APPEALS MEMORANDUM OPINION JUNE 24, 2020
APPENDIX E* PETITIONER'S APPLICATION FOR REHEARING
APPENDIX F -PETITIONER' S PETITION FOR WRIT OF CERTIORARI

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
XX] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _D___ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
txk is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was ___________ !___________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ____________
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
(date)
to and including_______
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[XjXFor cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix -------

JUNE 24,2020

[ ] A timely petition for rehearing was thereafter denied on the following date:
JULY 16, 2020-------- , and a copy of the order denying rehearing
appears at Appendix_E
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including August 4, 202Q^atP) on
(date) in
Appendix
F
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

STATEMENT OF THE CASE
Petitioner s proffer an admission of the Statement of the
case as presented in his brief on appeal which provides the
following relevant facts.
A Jefferson County Grand Jury indicted Rodarius Grimes of
Capital murder pursuant to Ala. Code 13A-5-40(a)(17). [C.89]
The indictment provided that Mr. Grimes "did intentionally
cause the death of Cortez Leman Rhynes, to-wit: by shooting him
with a pistol, while said Cortez Leman Rhynes was in a vehicle
... . [id.]. Although the State charged Mr. Grimes with capital
murder, his case was not eligible for the death penalty as no
aggravating circumstances existed. [R.65-66].
Mr. Grimes's first trial ended in a mistrial due to the
defense s unoposed motion based on the prospective jurors seeing
him in shackles, [r. 279-285]. At the second trial, the jury
convicted Mr. Grimes of capital murder as indicted. [R. 1352-54;
C. 52]. Prior to sentencing and while he was represented by
counsel, Mr. Grimes filed a pro se motion for new trial. [C.
383]. On February 20

2018, the court sentenced Mr. grimes to

life'in prison without the possibility of parole. [R. 1372; C.
62].
Following sentencing, the court appointed successor counsel
f or purposes of appeal, including the filing of the motion for
new trial. [C. 58-59]. However, successor counsel did not per-

feet Mr. Grime's direct appeal within the prescribed time
from his February 20, 2018, sentencing. [See C. 434-37]. Thus,
Mr. Grimes petitioned for leave to file an out-of-time appeal,
which the circuit court granted, [c. 426, C. 84]. In a Memoran­
dum Opinion dated June 26, 2020, the Court of Criminal Appeals
[State of Alabama] affirmed Mr. Grimes's conviction. It over"

ruled his Application for Rehearing on July 24, 2020. The Supreme
Court of Alabama denied his petition for Writ of Certiorari
and Mr. Grimes now timely file his Retiiton of Writ of Certiorari
to this Honorable Court. Thus,
entertain this petition.

this Court has jurisdiction to

REASONS FOR GRANTING THE PETITION

The State Court's decision[s] was/is in direct conflict with
clearly establish law as determine by the U.S. Supreme Court.

In the instant case, the record of the court clearly shows
the following:
On appeal, Grimes argues that the evidence was insufficient
to convict him of capital murder pursuant to 13A-5-40(a)(17). Grimes argues
that the trial court committed reversal error when it did not
allow the evidence technician Mrs/Ms.Murrary to give her lay
opinion pursuant to Rule 701 FED.R.EVID. of whether Mr. Rymes
was shot in the car based on her experience and observation of
the evidence. The Court of Criminal Appeals June 26, 2020 Memorandum
Opinion on page 12 lines 29-36

holding directly conflicts with

holdings from the U.S. Supreme Court in Jackson v. Virginia, 61
L.ED.2d 560 (1979) wherein the court held: "A federal court must
coniider

not whether there was any evidence to support a state-

court conviction, but whether there was sufficient evidence to

';

justify a rational trier of fact to find guilt beyond a reasonable
doubt.wIn re Winship, 397 US 358, 25 L.ED. 2d 368(1970)

Grimes

submit that had the jury heard this evidence no rational trier of
fact could have found proof of guilt beyond a reasonable doubt.
See In re Winship, supra.

I-

CONCLUSION

The petition for a writ of certiorari should be granted.

- Respectfully submitted,
Y

Ls'

RODARIUS GRIMES, AIS#313781
DAY OF NOVEMBER
Date:' _

/ </

, 2020

